Report No. DODIG-2012-077                    April 24, 2012




       Naval Surface Warfare Center Crane Contracts
           Awarded Without Competition Were
                    Adequately Justified
Additional Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (571) 372-7469.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing by phone (703) 604-9142 (DSN 664-9142), by fax (571) 372-7469, or by mail:

                      Department of Defense Office of Inspector General
                      Office of the Deputy Inspector General for Auditing
                      ATTN: Audit Suggestions/13F25-04
                      4800 Mark Center Drive
                      Alexandria, VA 22350-1500




Acronyms and Abbreviations
FAR                           Federal Acquisition Regulations
FPDS-NG                       Federal Procurement Data System – Next Generation
J&A                           Justification and Approval
NSWC                          Naval Surface Warfare Center
NMCARS                        Navy Marine Corps Acquisition Regulation Supplement
                                     INSPECTOR GENERAL
                                      DEPARTMENT OF DEFENSE 

                                      4800 MARK CENTER DRIVE 

                                   ALEXANDRIA, VIRGINIA 22350-1500 





                                                                                    April 24, 2012

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE FOR ACQUISITION,
                 TECHNOLOGY, AND LOGISTICS
               NAVAL INSPECTOR GENERAL

SUBJECT: Naval Surface Warfare Center Crane Contracts Awarded Without
          Competition Were Adequately Justified (Report No. DODIG-2012-077)

We are providing this report for your information and use. This report is the fourth in a series of
audit reports on DoD contracts awarded without competition. Naval Surface Warfare Center
Crane contracting personnel adequately justified the use of other than full and open competition
for all 27 contracts reviewed, valued at about $168.6 million. Naval Surface Warfare Center
Crane contracting and program personnel generally prepared and approved adequate sole-source
justifications and approvals for other than full and open competition and generally documented
compliance with additional Federal requirements to support those sole-source determinations.
No written response to this report was required, and none was received. Therefore, we are
publishing this report in final form.

We appreciate the courtesies extended to the staff. Please direct questions to me at (703)
604-9077 (DSN 664-9077).

                                            /~


                                            (d~t~~l~t~~kL~~i~~carver
                                              Assistant Inspector General
                                              Acquisition and Contract Management
Report No. DODIG-2012-077 (Project No. D2011-D000CG-0228.005)                         April 24, 2012 



               Results in Brief: Naval Surface Warfare
               Center Crane Contracts Awarded Without
               Competition Were Adequately Justified
                                                         compliance with additional FAR requirements
What We Did                                              to support those sole-source determinations for
Our audit objective was to determine whether             27 contracts.
DoD noncompetitive contract awards were
properly justified as sole source. This report is        Specifically, NSWC Crane contracting and
the fourth in a series of reports on DoD                 program personnel:
contracts awarded without competition and                   •	 generally included all required content
includes contracts issued by the Naval Sea                      elements in the J&As;
Systems Command Naval Surface Warfare                       •	 appropriately applied the cited authority
Center (NSWC) Crane. We reviewed                                permitting other than full and open
27 noncompetitive contracts with an obligated                   competition in the J&As;
value of about $107 million that NSWC Crane                 •	 generally obtained approval from proper
contracting personnel awarded in FY 2009 and                    personnel within required time frames to
FY 2010.                                                        issue noncompetitive contract awards;
                                                            •	 generally documented compliance with
Full and open competition is the preferred                      FAR Part 10, “Market Research,” in the
method for Federal agencies to award contracts.                 contract file; and
Section 2304, title 10, United States Code, and             •	 generally complied with FAR
Section 253, title 41, United States Code require               Subpart 5.2, “Synopses of Proposed
contracting officers to promote and provide for                 Contract Actions,” when synopsizing
full and open competition when soliciting offers                actions that required a presolicitation
and awarding contracts. Contracting officers                    notice, with the exception of including
may use procedures other than full and open                     all required language in the
competition under certain circumstances.                        presolicitation notice.
However, each contract awarded without
providing for full and open competition must             Management Comments
conform to policies and procedures in Federal            No written response to this report was required,
Acquisition Regulation (FAR) Subpart 6.3,                and none was received. Therefore, we are
“Other Than Full and Open Competition.”                  publishing this report in final form.

What We Found
NSWC Crane contracting personnel adequately
justified the use of other than full and open
competition for all 27 contracts reviewed, with
an obligated value of about $107 million.
NSWC Crane contracting and program
personnel generally prepared and approved
adequate sole-source justifications and
approvals (J&As) for other than full and open
competition and generally documented

                                                    i

Table of Contents

Introduction	                                                                 1


      Objective                                                               1

      Background                                                              1

      Naval Surface Warfare Center Crane                                      1

      Contracts Reviewed at NSWC Crane                                        2

      Review of Internal Controls at NSWC Crane                               2


NSWC Crane Contract Awards Were Adequately Justified As Sole Source           3


      NSWC Crane Adequately Supported Sole-Source Determinations              3

      NSWC Crane Personnel Generally Complied With Additional Regulations
	
           That Supported Sole-Source Determinations                           6

      Summary                                                                 11 


Appendices

      A. 	Scope and Methodology                                               12 

             Universe and Sample Information                                  12 

             Review of Documentation and Interviews                           13 

             Use of Computer-Processed Data                                   13 

             Use of Technical Assistance                                      14 

             Prior Coverage                                                   14 

      B. 	Federal Acquisition Regulation Criteria                             16 

             FAR Subpart 5.2, “Synopses of Proposed Contract Actions”         16 

             FAR Subpart 6.3, “Other than Full and Open Competition”          16 

             FAR Part 10, “Market Research”                                   17 

      C. Noncompetitive Contracts Reviewed	                                   18 

      D. Market Research Conducted	                                           22 

Introduction
Objective
Our objective was to determine whether noncompetitive contract awards were properly
justified as sole source at Naval Sea System Command Naval Surface Warfare Center
(NSWC) Crane, Indiana. This report is the fourth in a series of reports on DoD contracts
awarded without competition. See Appendix A for the scope and methodology and prior
coverage related to the objective.

Background
Section 2304, title 10, United States Code, and Section 253, title 41, United States Code
require contracting officers to promote and provide for full and open competition when
soliciting offers and awarding contracts. Promoting competition in Federal contracting
presents the opportunity for significant cost savings. In addition, competitive contracts
can help improve contractor performance, prevent fraud, and promote accountability.
Contracting officers may use procedures other than full and open competition under
certain circumstances. However, each contract awarded without providing for full and
open competition must conform to policies and procedures in Federal Acquisition
Regulation (FAR) Subpart 6.3, “Other Than Full and Open Competition.”

FAR subpart 6.3 prescribes the policies and procedures for contracting without full and
open competition. FAR Part 10, “Market Research,” prescribes policies and procedures
for conducting market research to arrive at the most suitable approach for acquiring,
distributing, and supporting supplies and services. FAR Subpart 5.2 “Synopses of
Proposed Contract Actions,” establishes policy to ensure agencies make notices of
proposed contract actions available to the public. Appendix B provides additional
explanation on FAR subpart 6.3, FAR part 10, and FAR subpart 5.2 requirements.

Naval Surface Warfare Center Crane
NSWC operates the Navy’s full spectrum research, development, test and evaluation,
engineering, and fleet support centers for offensive and defensive systems associated with
surface warfare and related areas of joint, homeland, and national defense systems from
the sea. The NSWC is located at eight sites. NSWC Crane oversees technical
capabilities for the rapidly changing combat environment to support the warfighter.
NSWC Crane specializes in total lifecycle support in three focus areas: Special Missions,
Strategic Missions, and Electronic Warfare/Information Operations. NSWC Crane
provides acquisition engineering, in-service engineering and technical support for
sensors, electronics, electronic warfare, and special warfare weapons.




                                            1
	
Contracts Reviewed at NSWC Crane
Our Federal Procurement Data System - Next Generation (FPDS-NG) queries identified
that NSWC Crane contracting personnel awarded 110 noncompetitive C and D type
contracts 1 during FY 2009 and FY 2010, with an obligated value 2 of $286.7 million, that
met the scope 3 of our review. We selected a nonstatistical sample of 30 noncompetitive
contracts with an obligated value of $110.1 million to review.

We excluded three contracts from our initial sample because they were outside the scope
of our audit. NSWC Crane contracting personnel cited FAR 6.302-6, “National
Security,” as the exception to competition in the justification and approval (J&A) for
other than full and open competition for two contract awards. Contracting personnel
were not required to meet the requirements stated in FAR Part 6, “Competition
Requirements,” for the third contract since the award was valued under the simplified
acquisition threshold. We did not review contracts awarded citing the “National
Security” exception or contract awards valued under the simplified acquisition threshold.

In total, we reviewed 27 contracts with an obligated value of about $107 million (the
combined base award, excluding options, was valued at approximately $168.6 million).
Of the 27 contracts we reviewed, the Government lacked the proprietary data, rights, or
technical data packages required to compete 24 contracts. In many cases, NSWC Crane
was procuring maintenance, repairs, spares, and/or upgrades to existing equipment or
procuring additional components or equipment to maintain consistency in the fleet and
ensure successful integration of components into equipment. See Appendix C for
specific noncompetitive contract awards reviewed.

Review of Internal Controls at NSWC Crane
DoD Instruction 5010.40, “Managers’ Internal Control Program (MICP) Procedures,”
July 29, 2010, requires DoD organizations to implement a comprehensive system of
internal controls that provides reasonable assurance that programs are operating as
intended and to evaluate the effectiveness of the controls. NSWC Crane’s internal
controls over their processes for issuing the noncompetitive contract awards we reviewed
were effective as they applied to the audit objective.




1
  Defense Federal Acquisition Regulation Supplement 204.7003, “Basic PII Number,” defines C type
contracts as “Contracts of all types except indefinite delivery contracts, sales contracts, and contracts
placed with or through other Government departments or agencies or against contracts placed by such
departments or agencies outside the DoD,” and D type contracts as “Indefinite delivery contracts.”
2
  Data obtained in FPDS-NG is reported on an individual action basis (that is, single modification). As a
result, we combined all actions identified for a given contract to determine the number of contracts awarded
during FY 2009 and FY 2010 and their respective obligated amounts.
3
  Our scope was limited to actions issued on contracts that were awarded during FY 2009 and FY 2010.
Actions were coded as either a “noncompetitive delivery order” or “not competed” FPDS-NG and did not
receive more than one offer as identified in FPDS-NG.



                                                     2
	
NSWC Crane Contract Awards Were
	
Adequately Justified As Sole Source
	
NSWC Crane contracting personnel adequately justified the use of other than full and
open competition on the J&As for other than full and open competition for all
27 contracts, with an obligated value of about $107 million. NSWC Crane contracting
personnel generally complied with FAR 6.303-2, “Content,” requirements in the J&As,
appropriately applied the authority cited for permitting other than full and open
competition for all 27 J&As, and generally obtained approval from the proper personnel
within the required time frames. Further, NSWC Crane contracting and program
personnel generally documented compliance with FAR Part 10, “Market Research,” and
FAR Subpart 5.2, “Synopses of Proposed Contract Actions,” in the contract files to
support sole-source determinations, with the exception of including all required language
in the presolicitation notice when synopsizing actions that required a presolicitation
notice.

NSWC Crane Adequately Supported Sole-Source
Determinations
NSWC Crane contracting personnel adequately supported the use of other than full and
open competition in the J&As for all 27 contracts. FAR 6.302, “Circumstances
Permitting Other Than Full and Open Competition,” lists the seven exceptions permitting
contracting without full and open competition. A contracting officer must not begin
negotiations for a sole-source contract without providing full and open competition
unless the contracting officer justifies the use of such action in writing, certifies the
accuracy and completeness of the justification, and obtains approval of the justification.
NSWC Crane contracting personnel did not always document all the required elements of
FAR 6.303-2 in the J&As; however, personnel appropriately applied the exception to
competition cited in the J&As to justify permitting other than full and open competition.
NSWC Crane contracting personnel obtained approval from the proper official for each
of the 27 J&As, obtained legal counsel’s review of all 27 J&As before submission to the
approval authority, and obtained approval within the required time frames, with one
exception.

NSWC Crane Generally Complied With J&A Content
Requirements
NSWC Crane contracting personnel generally documented compliance with content
requirements for the 27 J&As. Both FAR 6.303-2 and Navy Marine Corps Acquisition
Regulation Supplement (NMCARS) 5206.303-2, “Content,” identify the minimum
information that must be included in a J&A. NSWC Crane contracting personnel
included all the required elements as outlined by FAR 6.303-2 and NMCARS 5206.303-2
in the J&As, with the exception of 4 of the 27 J&As reviewed. See Table 1 for the
specific contracts that did not fully meet the J&A content requirements.




                                            3
	
                  Table 1. J&As Missing Content Requirements
   Requirement       N00164-09­     N00164-09­    N00164-10­                N00164-09­
                       C-JQ70         C-JQ56       C-WM22                    D-JN11
FAR 6.303-2(b)(6)          √
FAR 6.303-2(b)(8)                        √
FAR 6.303-2(b)(12)                                     √
NMCARS                                   √
5206.303-2(a)(i)
NMCARS                                   √             √                         √
5206.303-2(a)(ii)

NSWC Crane contracting personnel included all the required elements as outlined by
FAR 6.303-2 in the J&As, except for 3 of the 27 J&As reviewed. For contract N00164-
09-C-JQ70, contracting personnel did not state in the J&A whether or not a notice was or
will be publicized, and, if not, which exception under FAR 5.202, “Exceptions,” applied,
as required by FAR 6.303-2(b)(6). NSWC Crane contracting personnel did not state in
the J&A for contract N00164-09-C-JQ56 what market research was conducted, the
results of any market research conducted, or a statement why market research was not
conducted, as required by FAR 6.303-2(b)(8). For contract N00164-10-C-WM22,
contracting personnel did not include in the J&A the contracting officer’s certification
that the justification was accurate and complete to the best of the contracting officer’s
knowledge and belief, as required by FAR 6.303-2(b)(12). NSWC Crane contracting
personnel did not meet the previously discussed FAR content requirements, but only once
did contracting personnel not provide sufficient support for each of the three
requirements. We do not consider this to be a systemic problem at NSWC Crane and
therefore are not making a recommendation.

NSWC Crane contracting personnel included all the required elements as outlined by
NMCARS 5206.303-2 in the J&As, except for 3 of the 27 J&As reviewed. NMCARS
requires that a justification also include the period of performance for the proposed
acquisition, the total estimated dollar value identified by fiscal year and appropriation,
and an explanation of actions attempted to make the immediate acquisition competitive
and the cost/benefit analysis associated with obtaining competition. For contract
N00164-09-C-JQ56, contracting personnel did not include the period of performance in
the J&A, as required by NMCARS 5206.303-2(a)(i). NSWC Crane contracting
personnel did not identify the appropriations in the J&A for contract N00164-10-C-
WM22, as required by NMCARS 5206.303-2(a)(ii). For contracts N00164-09-D-JN11
and N00164-09-C-JQ56, contracting personnel did not identify the fiscal year or the
appropriation in the J&As, as required by NMCARS 5206.303-2(a)(ii). NSWC Crane
contracting personnel did not meet all of the NMCARS content requirements for only
three J&As; therefore, we do not consider this to be a systemic problem at NSWC Crane
and are not making a recommendation.




                                             4
	
NSWC Crane Appropriately Applied the Sole-Source Authority
Cited
NSWC Crane contracting personnel appropriately applied the cited authority permitting
other than full and open competition in each of the 27 J&As reviewed. NSWC Crane
contracting personnel awarded 21 contracts that cited the authority of FAR 6.302-1,
“Only One Responsible Source and No Other Supplies or Services Will Satisfy Agency
Requirements.” NSWC Crane contracting personnel awarded one contract that cited the
authority of FAR 6.302-2, “Unusual and Compelling Urgency.” Contracting personnel
awarded five contracts that cited both authorities. NSWC Crane contracting personnel
explained that some J&As would provide two exceptions to full and open competition
when unusual and compelling urgency was cited. Contracting personnel would also cite
and justify only one responsible source in the J&A if only one source could meet the
requirements since competition is still expected to the maximum extent possible for the
unusual and compelling urgency exception.

For the 26 contracts citing FAR 6.302-1, NSWC Crane contracting personnel provided
adequate rationale in the J&A to support why only one contractor could provide the
required product or service and why only that product or service could meet the
Government’s requirements. Of the 27 contracts we reviewed, the Government lacked
the proprietary data, rights, or technical data packages required to compete 24 contracts.
For example, contract N00164-10-C-JQ84 procured Target Sight Systems used on the
United States Marine Corps AH-1Z attack helicopter. The J&A explained that if another
target sight system was used, significant delays would occur due to modifications
required to integrate the system to the aircraft and developmental and operational testing.
Although NSWC Crane contracting personnel issued 9 of the 27 contracts for commercial
procurements, lack of the rights to technical data and the need for successful integration
led to the award of sole-source contracts. The DoD’s Competition Report for Fiscal Year
2009 and the DoD’s Competition Report for Fiscal Year 2010 both listed proprietary
rights on items developed at private expense and lack of good technical data packages as
barriers to competition.

For the six contracts citing FAR 6.302-2, NSWC Crane contracting personnel provided
adequate rationale in the J&A to support the unusual and compelling urgency of the
acquisition. FAR 6.302-2(c) and (d) impose further restrictions on contract awards citing
this authority. Contracting personnel are required by FAR 6.302-2(c) to request offers
from as many potential sources as practicable. For the six contracts, NSWC Crane
personnel provided adequate rationale in the J&A that supported why only one contractor
and only one product or service could meet the Government’s requirements. Contracting
personnel are required by FAR 6.302-2(d) to limit the period of performance of the
contract. NSWC Crane contracting personnel listed in the J&A a total period of
performance that did not exceed the time limitations established in the FAR for the
six contracts.




                                            5
	
NSWC Crane Obtained Approval From Proper Personnel Within
Required Time Frames for Sole-Source Contracts
NSWC Crane contracting personnel obtained approval from the proper personnel for all
27 J&As and obtained legal counsel’s review for all 27 J&As before submission to the
approval authority. FAR 6.304 defines the proper approval authority at various
thresholds for the estimated dollar value including options. Between FY 2009 and
FY 2010, the FAR authorized the procuring contracting officer to provide the final
approval for proposed contract actions up to $550,000 and the competition advocate of
the procuring activity to provide the final approval for proposed contract actions more
than $550,000 but not exceeding $11.5 million. The FAR authorized the general or flag
officer, if a member of the military, or a civilian in a position above GS-15 under the
General Schedule, to provide the final approval for proposed contract actions more than
$11.5 million but not exceeding $78.5 million. The FAR authorized the senior
procurement executive of the agency to provide the final approval for proposed contract
actions exceeding $78.5 million. NSWC Crane contracting personnel obtained approval
from the proper officials for all 27 J&As reviewed. NSWC Crane contracting personnel
obtained approval from the contracting officer for 3 J&As and from the NSWC Crane
Competition Advocate for 21 J&As. Contracting personnel also obtained approval from
the appropriate officials for two J&As valued more than $11.5 million but not exceeding
$78.5 million and for one J&A exceeding $78.5 million. NSWC Crane Legal Counsel
reviewed each of the 27 J&As for legal sufficiency before submission to the approval
authority for review and signature, as required by NMCARS 5206.303-90, “Legal
Reviews.”

NSWC Crane contracting personnel obtained approval for the J&As in the time frames
required for 26 of the 27 J&As. In the remaining instance, contracting personnel
obtained approval for contract N00164-09-C-JQ56 from the proper authority, but not
until after the contract was awarded. NSWC Crane contracting personnel awarded the
contract to provide a bridge contract to continue needed services until a competitive
contract could be awarded. In a discussion with a NSWC Crane contracting official, the
contracting official stated that contracting personnel could have better planned the
acquisition to obtain the required approval before the holiday vacations and the award of
the contract. FAR 6.303-1(e) states that J&As for contracts awarded citing the authority
of FAR 6.302-2 may be approved within a reasonable time after contract award when
preparation and approval prior to award would unreasonably delay the acquisitions. The
J&A cited FAR 6.302-1, which did not apply to this exception for approval after award.
We do not consider this to be a systemic problem and therefore are not making a
recommendation.

NSWC Crane Personnel Generally Complied With
Additional Regulations That Supported Sole-Source
Determinations
NSWC Crane contracting and program personnel generally documented the market
research efforts and included adequate documentation in the contract files to support FAR
part 10 and FAR subpart 5.2 requirements. NSWC Crane contracting personnel provided

                                            6
	
sufficient information in the contract files to determine the specific steps NSWC Crane
contracting and program personnel took to conduct market research and the results. In
addition, NSWC Crane contracting personnel included adequate documentation to
support that the proposed contract actions were properly synopsized in the
Governmentwide Point of Entry, which is accessed on the Internet at
http://www.fedbizopps.gov, with the exception of including the required language
outlined in FAR 5.207(c)(14) and FAR 5.207(c)(15) 4 in the synopses. NSWC Crane
contracting and program personnel generally complied with FAR part 10 and FAR
subpart 5.2 requirements to support NSWC Crane sole-source determinations.

NSWC Crane Generally Documented the Market Research
Efforts and the Results
NSWC Crane contracting and program personnel generally documented the market
research conducted or provided adequate justification in the contract file when market
research was not conducted for 26 of the 27 contracts reviewed. Contracting personnel
included documentation to show compliance with FAR part 10 in the contract file 5 to
support 26 of the 27 sole-source determinations. FAR part 10 states that agencies should
document the results of market research in a manner appropriate to the size and
complexity of the acquisition. FAR 10.002, “Procedures,” states the extent of market
research will vary, depending on factors such as urgency, estimated dollar value,
complexity, and past experience. NSWC Crane contracting and program personnel
performed market research techniques identified in FAR part 10 for 24 of the 26 contract
awards that had adequate support documented in the contract file. For example, NSWC
Crane contracting and program personnel conducted internet and database inquiries,
contacted knowledgeable individuals in Government and industry, or reviewed past
procurements for the 24 sole-source awards that had estimated values ranging from
$336,000 to $48.75 million. NSWC Crane contracting and program personnel
documented the market research techniques performed and the subsequent results in each
of the 24 contract files. See Appendix D for additional information on the market
research NSWC Crane personnel conducted.

NSWC Crane contracting and program personnel did not conduct market research for
2 of the 27 contracts; however, contracting personnel provided adequate documentation
in the contract file to support each sole-source determination. For example, NSWC
Crane contracting and program personnel did not conduct market research for contract
N00164-10-C-JT11 because procuring Stiletto masts with mast controls from any other
company would have resulted in substantial delays and duplication of costs to the
Government. The time delay and associated reverse engineering costs were not
acceptable considering the compelling need for the systems. According to documentation


4
  Effective May 31, 2011, the Federal Acquisition Regulation Circular contained updates that moved the 

requirements in FAR 5.207(c)(14) and FAR 5.207(c)(15) to FAR 5.207(c)(15) and FAR 5.207(c)(16),
	
respectively.

5
  We considered documentation sufficient to meet FAR part 10 requirements if the specific steps taken to
	
conduct market research and the subsequent results were documented or adequate rationale for not
	
conducting market research were documented.
	

                                                     7
	
in the contract file, program personnel estimated a 10-month delay to reverse engineer the
product, costing about $1.8 million. NSWC Crane contracting personnel cited an
increased risk to warfighter casualties in a hostile area of operation in theater if the
systems were not provided in a timely manner. Contracting personnel awarded the
contract action under the conditions described in FAR 6.302-2, “Unusual and Compelling
Urgency,” at an estimated value of $367,740. NSWC Crane contracting personnel did
not include documentation to show compliance with FAR part 10 in the contract file to
support 1 of the 27 sole-source determinations, specifically contract N00164-09-C-JQ56.

Inadequate Documentation for Contract N00164-09-C-JQ56
NSWC Crane contracting personnel did not include adequate documentation in the
contract file for contract N00164-09-C-JQ56 to support FAR part 10 requirements.
NSWC Crane contracting and program personnel did not document the specific steps
taken to conduct market research and the subsequent results or provide adequate rationale
for not conducting market research in the J&A or elsewhere in the contract file.
Although NSWC Crane contracting personnel did not document compliance with
FAR part 10 in the contract file, contracting personnel appropriately cited, “only one
responsible source,” as the exception to competition in the J&A. NSWC Crane
contracting personnel awarded the contract for engineering, technical, and management
support services in support of various products under the Airborne Electro-Optics
Electronic Warfare Systems project. Contracting personnel stated in the J&A that the
project would be interrupted if the required services were transferred to another
contractor, increasing risk to the Navy by exposing armed forces to the possibility of loss
of life. NSWC Crane contracting personnel explained that the contractor worked closely
with the Government to develop products for the project that were in various life-cycle
stages and could not be transferred to another contractor. This documentation omission
did not result in an inadequate sole-source determination; therefore, we do not consider
the problem to be systemic and are not making a recommendation.

Processes at NSWC Crane Facilitate Market Research Efforts
NSWC Crane officials have processes in place to help ensure that market research is
conducted. According to the Small Business Deputy and Assistant Legal Counsel at
NSWC Crane, training was provided at least twice a year that covered techniques used to
conduct market research and the steps required to prepare a J&A. According to the
Competition Advocate, NSWC Crane contracting officials conducted internal reviews
twice a year on selected contracts to verify the quality and completeness of the
documentation contained within the selected contract files.

NSWC Crane officials also implemented processes in the acquisition process to
document market research efforts as outlined in their Acquisition Request Preparation
Guide. The Acquisition Request Preparation Guide is a process and planning tool that
provided the major steps of an acquisition and contained the suggested and required
forms and checklists to be completed by both program and contracting personnel. For
example, program personnel were required to complete a form that documented the
market research techniques used. Program personnel documented market research
techniques including identifying the Government or industry individuals contacted,

                                             8
	
databases queried, catalogs reviewed, conferences attended, or any additional information
relevant to market research, such as whether or not the Government owned any technical
data. Contracting personnel were encouraged to complete a questionnaire that
identified the standard business practices of a potential source, such as standard delivery
terms and quantity discounts, as well as commercial practices and data rights ownership.
However, the questionnaire did not have a place for contracting personnel to sign and
date the document. In addition, NSWC Crane officials required program and contracting
personnel to complete separate checklists that documented specific actions taken
throughout the procurement process. For example, each checklist required personnel to
document the commerciality of the product, the extent of market research conducted, and
the prior history reviewed to verify that all previous vendors have been solicited.

NSWC Crane Generally Complied With Synopsis Requirements
NSWC Crane contracting personnel complied with requirements when synopsizing the
21 proposed contract actions that required a presolicitation notice, with the exception of
including the required language outlined in FAR 5.207(c)(14) and FAR 5.207(c)(15). 6
FAR 5.2, “Synopses of Proposed Contract Actions,” requires contracting officers to
transmit a notice to the Governmentwide Point of Entry for each proposed contract action
expected to exceed $25,000, other than those covered by an exception in FAR 5.202,
“Exceptions.” The primary purposes of the notice are to improve small business access
to acquisition information and enhance competition by identifying contracting and
subcontracting opportunities. NSWC Crane contracting personnel included
documentation in the contract file to support that the synopsis was posted to the
Governmentwide Point of Entry, which detailed the notice of the proposed contract
action, in each of the 21 contract files.

NSWC Crane contracting personnel did not synopsize the proposed contract action for
each of the six noncompetitive contract awards that cited FAR 6.302-2, “Unusual and
Compelling Urgency,” as the exception to competition. In accordance with
FAR 5.202(a)(2), 6 of the 27 contracts reviewed did not contain a synopsis. Contracting
officers are exempted from issuing a synopsis under FAR 5.202(a)(2) when the proposed
contract action is made under the conditions described in FAR 6.302-2, “Unusual and
Compelling Urgency,” and the Government would be seriously injured if the agency
complies with the publicizing and response times specified in the FAR.

NSWC Crane contracting personnel generally complied with the time frames as
established in FAR subpart 5.2 for 20 of the 21 contracts that were synopsized.
Contracting personnel synopsized 1 of the 21 contracts that did not comply with time
frames as established in FAR subpart 5.2. FAR 5.203(a) states that the notice must be
published at least 15 days before issuance of a solicitation or a proposed contract action
that the Government intends to solicit and negotiate with only one source. NSWC Crane
contracting personnel did not provide the required 15-day response time when


6
  Effective May 31, 2011, the Federal Acquisition Regulation Circular contained updates that moved the
requirements in FAR 5.207(c)(14) and FAR 5.207(c)(15) to FAR 5.207(c)(15) and FAR 5.207(c)(16),
respectively.

                                                    9
	
synopsizing contract N00164-09-C-JQ56. Only one contract did not meet the FAR
subpart 5.2 time frames; therefore, we do not consider this to be a systemic problem at
NSWC Crane and are not making a recommendation.

NSWC Crane contracting personnel generally included all applicable elements in the
synopsis, except for including the required language outlined in FAR 5.207(c). NSWC
Crane contracting personnel did not always indicate to potential sources why only one
contractor could meet the needs of the Government because NSWC Crane contracting
personnel did not include a statement in the synopsis that justified the lack of competition
for 9 of the 21 contracts that were required to be synopsized. FAR 5.207(c)(14) requires
the synopsis for noncompetitive contract actions to identify the intended source and
provide a statement justifying the lack of competition. NSWC Crane contracting
personnel documented the specific FAR clause that permits contracting without full and
open competition in seven of the nine notices. However, they did not give an explanation
as to why that clause applied to the procurement. We are not making a recommendation
because NSWC Crane contracting personnel included support within each of the
nine J&As to show that competition could not be reasonably anticipated.

NSWC Crane contracting personnel did not always encourage potential sources to answer
the synopsis because contracting personnel did not include the language required by
FAR 5.207(c)(15) for 7 of the 21 contract actions that were required to be synopsized.
FAR 5.207(c)(15) requires the synopsis for noncompetitive contract actions to include a
statement that all responsible sources may submit a capability statement, bid, proposal, or
quotation, “which shall be considered by the agency.” We are not making a
recommendation because NSWC Crane contracting personnel included support within
each of the seven J&As to show that competition could not be reasonably anticipated.
NSWC Crane contracting personnel generally included all applicable elements in the
synopsis, with the exception of including the required language outlined in both
FAR 5.207(c)(14) and FAR 5.207(c)(15) for three contract awards. See Table 2 for the
nine contracts that did not comply with FAR 5.207(c)(14) and the seven contracts that did
not comply with FAR 5.207(c)(15) requirements.




                                            10
	
                           Table 2. Contracts Not In Compliance With

                        FAR 5.207(c)(14) and FAR 5.207(c)(15) Requirements

       Contract                   Synopsis did not include a               Synopsis did not indicate that all
                               statement justifying the lack of            responsible parties may submit a
                                        competition.                     capability statement, bid, proposal, or
                                                                          quotation which shall be considered
                                                                                      by the agency.
N00164-10-C-JQ84                                √
N00164-09-D-JN11                               √+
N00164-09-D-JN50                                √                                             √
N00164-10-C-GR44                                √                                             √
N00164-09-C-JQ56                               √+                                             √
N00164-10-D-GR49                                √
N00164-10-D-WM15                                √
N00164-09-D-GS16                                √
N00164-10-D-JS16                                √
N00164-09-D-JQ64                                                                              √
N00164-10-D-JN69                                                                              √
N00164-09-D-WS01                                                                              √
N00164-10-D-WS26                                                                              √
+Did not document the specific FAR clause that permits contracting without full and open competition.


Summary
NSWC Crane contracting personnel adequately justified the use of other than full and
open competition on the J&As for all 27 contracts reviewed. NSWC Crane contracting
personnel generally complied with FAR 6.303-2 requirements in the J&As, appropriately
applied the authority cited for all 27 J&As and generally obtained approval from the
proper personnel within the required time frames. Further, NSWC Crane contracting and
program personnel generally documented compliance with FAR part 10 and FAR
subpart 5.2 in the contract files to support sole-source determinations, with the exception
of including all required language in the presolicitation notice when synopsizing actions
that required a presolicitation notice. We are not making recommendations because we
do not consider the problems identified to be material.




                                                        11
	
Appendix A. Scope and Methodology
We conducted this performance audit from August 2011 through April 2012 in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

Our scope was limited to noncompetitive contract awards during FY 2009 and FY 2010
to determine whether Naval Sea Systems Command Naval Surface Warfare Center
(NSWC) Crane, Indiana, noncompetitive contract awards were properly and adequately
justified as sole-source. Our review was limited to the justification and approval (J&A)
for other than full and open competition for the base contract award and supporting
documentation within the contract file. We did not review contracts that were awarded
for national security purposes, foreign military sales, classified contracts, or contracts that
were improperly coded in the Federal Procurement Data System - Next Generation
(FPDS-NG) as noncompetitive. In addition, we did not review contracts that were not
truly sole source such as contracts that were competitive one bids or contracts set aside to
develop small businesses.

In July 2011, DoD Office of Inspector General management decided the audit teams
would issue site reports under individual subprojects from the initial project. In October
2011, we reannounced the revised audit approach of issuing separate audit reports for
each audit site as well as the revised audit objective to determine whether DoD
noncompetitive contract awards were properly justified as sole source. We removed the
specific objective to determine whether negotiated amounts were fair and reasonable.

Universe and Sample Information
We used FPDS-NG to identify noncompetitive contract actions issued by Military
Services and Defense agencies during FY 2009 and FY 2010. The queries were limited
to actions issued on contracts that were awarded during FY 2009 and FY 2010 and coded
as a “noncompetitive delivery order” or “not competed” in FPDS-NG. The queries also
excluded contract actions that received more than one offer as identified in FPDS-NG.
We selected the four DoD Components with the highest dollar value of awards,
specifically, the Army, Navy, Air Force, and the Defense Logistics Agency to identify
specific audit locations. We focused our site selection on three sites for the Department
of the Navy that awarded 20 or more C and D type noncompetitive contracts and
obligated approximately $200 million or more during FY 2009 and FY 2010. Our site
selection excluded sites that were visited during the review on noncompetitive contract
awards for Government Accountability Office Report No. GAO-10-833, “Opportunities
Exist to Increase Competition and Assess Reasons When Only One Offer Is Received,”
July 26, 2010. In addition, we reviewed reports the DoD Office of Inspector General,




                                              12
	
Acquisition and Contract Management Directorate, issued from FY 2009 to April 2011
that covered acquisition and contracting procedures and excluded sites that have been
visited on numerous occasions.

The initial data obtained from FPDS-NG resulted in a universe of 110 applicable
contracts for NSWC Crane. We nonstatistically selected 30 of the 110 contracts by using
many different factors including different dollar amounts, products, services, and contract
types to create a diverse, nonstatistical sample. However, we did not review contracts
within the 30 selected that were awarded for national security purposes, foreign military
sales, classified contracts, or contracts that were improperly coded in the FPDS-NG as
noncompetitive. In addition, we did not review contracts that were not truly sole source
such as contracts that were competitive one bids or contracts set aside to develop small
businesses. In total, we excluded 3 of the 30 contracts selected because they were outside
the scope of our audit. NSWC Crane contracting personnel cited FAR 6.302-6, “National
Security,” as the exception to competition in the J&A for two contracts. NSWC Crane
contracting personnel were not required to meet the requirements stated in FAR Part 6,
“Competition Requirements,” for the third contract since the award was valued under the
simplified acquisition threshold. Based on these exclusions, we reviewed 27 of the 30
contracts requested. See Appendix C for additional details on the noncompetitive
contracts reviewed.

Review of Documentation and Interviews
We evaluated documentation against applicable criteria including:
  •	 FAR Subpart 5.2, “Synopses of Proposed Contract Actions”;
  •	 FAR Subpart 6.3, “Other Than Full and Open Competition”;
  •	 FAR Part 10, “Market Research”;
  •	 Defense Federal Acquisition Regulation Supplement, 204.7003, “Basic PII
      Number”; and
  •	 NMCARS 5206.3, “Other Than Full and Open Competition.”

We interviewed contracting personnel at NSWC Crane, Indiana, to discuss
noncompetitive contract awards and to obtain information regarding the noncompetitive
contract files identified in our sample, specifically about the J&A, market research, and
supporting documentation. We also interviewed the Competition Advocate, the Small
Business Deputy, and Legal Counsel at NSWC Crane to gain an understanding of their
responsibilities and roles in noncompetitive contract awards.

Use of Computer-Processed Data
We relied on computer-processed data from the FPDS-NG to establish the initial universe
for this audit by identifying noncompetitive contract actions issued by Military Services
and Defense agencies. We also used the data from the FPDS-NG to help determine the
contracting organizations to visit and to perform the nonstatistical sample selection. In
addition, we used the Electronic Document Access database to obtain contract
documentation, such as the contract and modifications to the contract before our site visit
to NSWC Crane. To assess the accuracy of the computer-processed data, we verified the

                                            13
	
FPDS-NG and Electronic Document Access data against official records at NSWC
Crane. We determined that data obtained through the Electronic Document Access
database was sufficiently reliable to accomplish our audit objectives when compared with
contract records. We determined that there was one miscoding in the data reviewed from
FPDS-NG when compared with contract documentation; however, we used FPDS-NG
only to identify the universe, to help determine the contracting organizations to visit, and
to identify our nonstatistical sample.

Use of Technical Assistance
We held discussions with personnel from the Department of Defense Office of Inspector
General’s Quantitative Methods and Analysis Division. We determined that we would
use FPDS-NG data to select a nonstatistical sample of contracting activities and then use
FPDS-NG data to select a nonstatistical sample of noncompetitive contracts to review.
During our site visit, we worked with NSWC Crane contracting personnel to verify that
the selected contracts met the scope limitations of our review and to identify additional
contracts that did not meet the selection criteria. Our nonstatistical sample was limited to
specific contracts, and our results should not be projected across other NSWC-issued or
Navy-issued contracts.

Prior Coverage
During the last 5 years, the Government Accountability Office (GAO), the Department of
Defense Inspector General (DoD IG), and the Department of the Army have issued six
reports discussing noncompetitive contract awards. Unrestricted GAO reports can be
accessed over the Internet at http://www.gao.gov. Unrestricted DoD IG reports can be
accessed at http://www.dodig.mil/audit/reports. Unrestricted Army reports can be
accessed from .mil and gao.gov domains over the Internet at http://www.aaa.army.mil/.

GAO
GAO Report No. GAO-12-263, “Improved Policies and Tools Could Help Increase
Competition on DoD’s National Security Exception Procurements,” January 13, 2012

GAO Report No. GAO-10-833, “Opportunities Exist to Increase Competition and Assess
Reasons When Only One Offer Is Received,” July 26, 2010

DOD IG
DOD IG Report No. DODIG-2012-076, “Army Contracting Command – Rock Island
Contracts Awarded Without Competition Were Properly Justified,” April 19, 2012

DOD IG Report No. DODIG-2012-073, “Natick Contracting Divisions’ Management of
Noncompetitive Awards Was Generally Justified,” April 10, 2012

DOD IG Report No. DODIG-2012-042, “Naval Air Systems Command Lakehurst
Contracts Awarded Without Competition Were Properly Justified,” January 20, 2012



                                            14
	
Army
Army Audit Agency Report No. A-2011-0002-ALC, “Extent of Competition in Army
Contracting,” October 12, 2010




                                      15
	
Appendix B. Federal Acquisition Regulation
Criteria
FAR Subpart 5.2, “Synopses of Proposed Contract Actions”
FAR 5.201, “General,” requires agencies to provide a synopsis of proposed contract
actions for the acquisition of supplies and services. The contracting officer must submit
the synopsis to the Governmentwide Point of Entry that can be accessed on the Internet at
http://www.fedbizopps.gov. FAR 5.202, “Exceptions,” lists circumstances when the
contracting officer does not need to submit a synopsis, such as when a contract action
cites an unusual and compelling urgency as the exception to full and open competition.
In addition, FAR 5.203, “Publicizing and Response Time,” requires the synopsis to be
published for at least 15 days before issuing a solicitation or proposed contract action that
the Government intends to solicit and negotiate with only one source under the authority
of FAR 6.302. However, the contracting officer may establish a shorter period of
issuance for commercial items. FAR 5.207, “Preparation and Transmittal of Synopses,”
requires each synopsis submitted to the Governmentwide Point of Entry to include certain
data elements as applicable, such as the date of the synopsis, the closing response date, a
description, and the point of contact or contracting officer.

FAR Subpart 6.3, “Other Than Full and Open Competition”
FAR subpart 6.3 prescribes the policies and procedures for contracting without full and
open competition. Contracting without full and open competition is a violation of statute,
such as section 2304, title 10, United States Code, unless permitted by an exception
provided in FAR 6.302, “Circumstances Permitting Other Than Full and Open
Competition.” FAR 6.302 lists the seven exceptions for contracting without full and
open competition:
   •	 FAR 6.302-1, “Only One Responsible Source and No Other Supplies or Services
       Will Satisfy Agency Requirements;”
   •	 FAR 6.302-2, “Unusual and Compelling Urgency;”
   •	 FAR 6.302-3, “Industrial Mobilization; Engineering, Developmental, or Research
       Capability; or Expert Services;”
   •	 FAR 6.302-4, “International Agreement;”
   •	 FAR 6.302-5, “Authorized or Required by Statute;”
   •	 FAR 6.302-6, “National Security;” and
   •	 FAR 6.302-7, “Public Interest.”

A contracting officer shall not begin negotiations for a sole-source contract without
providing full and open competition unless the contracting officer justifies the use of such
action in writing, certifies the accuracy and completeness of the justification, and obtains
approval of the justification. FAR 6.303-2, “Content,” requires each justification to
contain sufficient facts and rationale to justify the use of the authority cited. At a
minimum each justification must contain:
    •	 the name of the agency and contracting activity and identification of the document
        as a “Justification for other than full and open competition;”

                                             16
	
   •	 a description of the action being approved;
   •	 a description of the supplies or services required to meet the agency’s needs,
      including the estimated value;
   •	 the statutory authority permitting other than full and open competition;
   •	 a demonstration that the contractor’s unique qualifications or the nature of the
      acquisition requires the use of the authority cited;
   •	 a description of the efforts made to ensure offers are submitted from as many
      sources as practicable, including whether a notice was or will be publicized;
   •	 the contracting officer’s determination that the cost to the Government will be fair
      and reasonable;
   •	 a description and the results of the market research conducted or, if market
      research was not conducted, a reason it was not conducted;
   •	 any other facts supporting the use of other than full and open competition;
   •	 a listing of sources that expressed written interest in the acquisition;
   •	 a statement of the actions the agency may take to overcome any barriers to
	
      competition before a subsequent acquisition; and 

   •	 the contracting officer’s certification that the justification is accurate and
	
      complete to the best of their knowledge and belief. 


FAR 6.304, “Approval of the Justification,” identifies the person responsible for
approving the J&A based on the value of the proposed contract. The thresholds
discussed are the thresholds that were in place during the scope of the audit. The
contracting officer approves the J&A for a proposed contract not exceeding $550,000.
The competition advocate approves the J&A for a proposed contract of more than
$550,000 but not exceeding $11.5 million. A general or flag officer, if a member of the
military, or a civilian in a position above GS-15 under the general schedule, approves the
J&A for a proposed contract of more than $11.5 million but not exceeding $78.5 million.
The senior procurement executive of the agency approves the J&A for a proposed
contract of more than $78.5 million.

FAR Part 10, “Market Research”
FAR part 10 prescribes policies and procedures for conducting market research to arrive
at the most suitable approach for acquiring, distributing, and supporting supplies and
services. Agencies are required to conduct market research appropriate to the
circumstance before soliciting offers for acquisitions with an estimated value over the
simplified acquisition threshold. Agencies are required to use the results of market
research to determine if there are appropriate sources or commercial items capable of
satisfying the agency’s requirements. The extent of market research the agencies conduct
varies, depending on factors such as urgency, estimated dollar value, complexity, and
past experience. Agencies use market research techniques, such as contacting
knowledgeable individuals in Government and industry, reviewing results of recent
market research, publishing formal requests for information, querying databases,
participating in on-line communication, obtaining source lists of similar items, and
reviewing available product literature. Agencies should document the results of market
research in a manner appropriate to the size and complexity of the acquisition.

                                            17
	
                               Appendix C. Noncompetitive Contracts Reviewed
	
                Noncompetitive Contracts Awarded by NSWC Crane Contracting Division From FY 2009-FY 2010
                                Product,
            Contract
                                                                                            Award     Contract   Authority     Contract

                                Service,                        Description at Award
            Number
                                                                                               Date      Type       Cited         Value1

                                or R&D
 1      N00164-10-C-JQ84         Product         18 Target Sight Systems, data, and nonrecurring efforts         4/23/10     FFP      FAR 6.302-1   $44,414,000
                                                   The repair, upgrade, and production of high-voltage
                                                subassemblies in support of the AN-SLQ-32(V) Electronic
 2     N00164-10-D-WM17          Product
                                                   Warfare System. Total estimated quantities included
                                                                                                                 9/30/10     FFP      FAR 6.302-1   $7,967,525
                                                       149 repairs, 92 upgrades, and 27 new builds

                                                   Maintenance and repairs of Bradley Eye-safe Laser
 3     N00164-09-D-JQ64          Service
                                                   Rangefinder Laser Resonators and associated data
                                                                                                                 9/30/09     FFP      FAR 6.302-1   $5,557,000


                                               Test, tear down, evaluate, repair, upgrade, and/or modify the
 4     N00164-09-D-JN11          Product       MK49 MOD 0 Remote Operated Small Arms Mounts and/or               7/22/09     FFP      FAR 6.302-1   $4,900,000
                                                                 assemblies/subassemblies
                                                 1 ATE for the Universal Radio Frequency Test Facility,
                                                1 ATE for the ALQ-214V System/WRA Verification Test
 5     N00164-09-C-WT44          Product        Facility, 1 Interface Adapter for use on the Universal Test      5/28/09     FFP      FAR 6.302-1   $4,262,282
                                                Facility System, travel to the subcontractor's facility and to
                                                                   NSWC Crane, and data
                                               .50 Caliber Feed Chutes, adapter, exit end fittings, can ends,
                                                 and link chutes; Standard Mini-Gun and Link Chutes (4 -
 6     N00164-09-D-JN50          Product
                                                        11 feet), gun ends, and ammo box ends; and
                                                                                                                 9/29/09     FFP      FAR 6.302-1   $3,000,000
                                                          7.62 millimeter Feed Chutes (4-11 feet)
Acronyms and footnotes used throughout Appendix C are defined on the final page of Appendix C.




                                                                                         18
	
                       Appendix C. Noncompetitive Contracts Reviewed (con’t)
                Noncompetitive Contracts Awarded by NSWC Crane Contracting Division From FY 2009-FY 2010
                                Product,
            Contract                                                                                          Award      Contract     Authority       Contract
                                Service,                       Description at Award
            Number                                                                                             Date       Type         Cited           Value1
                                or R&D
                                              Replenishment spares for GBOSS including 120 Transmitters,
                                                                                                                                    FAR 6.302-1 and
 7      N00164-10-C-JT04         Product             110 8-Channel Contact Receivers, and 90 Fiber            12/21/09     FFP                         $591,4572
                                                                                                                                     FAR 6.302-2
                                                              Optic Modem Transmitters
                                                  45 Camera Pan/Tilt Assemblies, 55 Radio Mounts, and                               FAR 6.302-1 and
 8      N00164-10-C-JT05         Product
                                               16 Electro Mechanical Pan Tilts, and 24 Elec-Mech Pan/Tile
                                                                                                              11/25/09     FFP
                                                                                                                                     FAR 6.302-2
                                                                                                                                                       $504,949

                                              Clip on Night Vision Device Image Intensification. Minimum
 9      N00164-10-D-JN69         Product
                                                           of 10 and maximum of 7,500 units
                                                                                                              9/28/10      FFP       FAR 6.302-1      $48,750,000

                                              10 Grade A and 15 Grade B Tech Refresh Kits, an INCO Kit,
                                                  data, an IETM and updates, Operator Computer Based
                                               Instruction, and Interactive Electronic Maintenance updates.
                                                There were options for Grade A and Grade B Tech Refresh
10     N00164-10-C-GR44          Product
                                                 Kits that expire September 30, 2010 (minimum of 5 and
                                                                                                              8/19/10      FFP       FAR 6.302-1      $5,150,045
                                              maximum of 10 units). There were also options for Grade A
                                                and Grade B Tech Refresh Kits that expire September 30,
                                                           2011 (minimum quantity of 25 units)
                                                MK49 MOD 0 Remote Operated Small Arms Mount Gun
11      N00164-10-D-JN97         Product
                                                Weapon System. Minimum of 2 and maximum of 24 units
                                                                                                              7/16/10      FFP       FAR 6.302-1      $5,000,000

                                                Major and minor repairs of the Band 9/10 Traveling Wave
12     N00164-09-D-WS01          Product          Tube (estimated 131 major and 132 minor repairs),           10/20/08     FFP       FAR 6.302-1      $4,000,000
                                                                 evaluations, and data
                                                     370 “C” and 90 “B” cells with commercial trays
13     N00164-09-C-GS38          Product
                                                                 and source inspection
                                                                                                              11/4/08      FFP       FAR 6.302-2      $1,217,222

                                                                                                                                    FAR 6.302-1 and
14      N00164-09-C-JQ70         Product                     60 Magnetic Transmitter Units                    12/22/08     FFP
                                                                                                                                     FAR 6.302-2
                                                                                                                                                       $839,330

Acronyms and footnotes used throughout Appendix C are defined on the final page of Appendix C.




                                                                                      19
	
                      Appendix C. Noncompetitive Contracts Reviewed (con’t)
               Noncompetitive Contracts Awarded by NSWC Crane Contracting Division From FY 2009-FY 2010
                              Product,
           Contract                                                                                         Award      Contract     Authority       Contract
                              Service,                       Description at Award
           Number                                                                                            Date       Type         Cited           Value1
                              or R&D
                                               Labor in support of Electro-Optics Division Engineering,
15     N00164-09-C-JQ56         Service
                                                     technical, and management support services
                                                                                                            12/19/08     CPFF      FAR 6.302-1      $11,170,249

                                               Evaluation for repair (minimum of 1 and maximum of 30
                                                evaluations), standard repair, and non-standard repair
16    N00164-10-D-GR49          Product         (minimum of 1 and maximum of 30 combined repairs             9/2/10      FFP       FAR 6.302-1       $650,000
                                                        between standard and non-standard) of
                                                             AN/SPS-48E Rotary Coupler
                                                                                                                                  FAR 6.302-1 and
17    N00164-10-C-WT76          Product               40 Transformer Rectifier Units and 5 Fans              4/8/10      FFP
                                                                                                                                   FAR 6.302-2
                                                                                                                                                     $618,851

18    N00164-10-D-WM19          Product               Double Optimized Control Cables and data              1/20/10      FFP       FAR 6.302-1       $591,027
                                               Spares and repairs of the HC/KC/C-130J smoke detectors
19    N00164-10-D-WT71          Product
                                                                 and fire extinguishers
                                                                                                             4/9/10      FFP       FAR 6.302-1       $501,085

                                                                                                                                  FAR 6.302-1 and
20     N00164-10-C-JT11         Product                   10 Stiletto masts with mast control               11/17/09     FFP
                                                                                                                                   FAR 6.302-2
                                                                                                                                                     $367,740

                                                Goldengate Design Software, license, and 12 months of
21    N00164-10-C-WM22          Product
                                                                upgrade and support
                                                                                                            12/23/09     FFP       FAR 6.302-1       $268,993

                                               2 High Voltage Power Supply, Traveling Wave Tube Grid
22    N00164-10-C-GR87          Product
                                                    Modulators and an option for 2 additional units
                                                                                                            8/25/10      FFP       FAR 6.302-1       $168,800

                                             Non-personal Technical and Engineering Services, travel, and              CPFF and
23    N00164-10-D-WM15          Service
                                                                 other direct costs
                                                                                                             7/9/10
                                                                                                                         Cost
                                                                                                                                   FAR 6.302-1      $10,938,752

                                Product        20 Field Service Representatives for 1 year with 3 option                FFP and
24    N00164-09-C-WQ19
                              and Service       years, in-theater transportation, and support equipment
                                                                                                            2/18/09
                                                                                                                         Cost
                                                                                                                                   FAR 6.302-1      $8,867,370

Acronyms and footnotes used throughout Appendix C are defined on the final page of Appendix C.




                                                                                     20
	
                          Appendix C. Noncompetitive Contracts Reviewed (con’t)
                   Noncompetitive Contracts Awarded by NSWC Crane Contracting Division From FY 2009-FY 2010
                                   Product,
              Contract                                                                                               Award         Contract          Authority          Contract
                                   Service,                        Description at Award
              Number                                                                                                  Date          Type              Cited              Value1
                                   or R&D
                                                     R&D related to the design and build of Missile Defense
    25   N00164-09-D-GS16            R&D
                                                                   Agency-specific batteries
                                                                                                                     11/13/08          Cost          FAR 6.302-1        $6,000,000

                                                      Laser Range Finder repairs, material lay in, and data
                                                     deliverables. Estimated quantities are 12 minor repairs,
    26   N00164-10-D-JS16           Service
                                                     30 intermediate repairs, and 87 major repairs, for a total
                                                                                                                     11/12/09          FFP           FAR 6.302-1        $2,395,625
                                                                estimated quantity of 129 repairs.
                                                           Low Noise Amplifiers, minimum of 10 and
    27   N00164-10-D-WS26           Product
                                                                   maximum of 170 units
                                                                                                                      7/26/10          FFP           FAR 6.302-1        $341,520
1
 The contract value is the base award value or the maximum ceiling price at award excluding options.

2
 This contract was awarded for $591,457 and the first modification changed the contract value to $559 to pay the contractor for shipping costs. After award, it was
	
determined that the procurement of a prior configuration of the GBOSS did not meet the current requirement, so the modification was issued to cancel the order.
	

ATE                  Automated Test Equipment
	
CPFF                 Cost-Plus-Fixed-Fee
	
FAR 6.302-1          Only One Responsible Source and No Other Supplies or Services Will Satisfy Agency Requirements
	
FAR 6.302-2          Unusual and Compelling Urgency
	
FFP                  Firm-Fixed-Price
	
GBOSS                Ground Based Operational Surveillance System
	
IETM                 Interactive Electronic Technical Manual
	
INCO                 Installation and Check-Out
	
NSWC                 Naval Surface Warfare Center
	
R&D                  Research and Development
	
WRA                  Weapons Replaceable Assembly
	




                                                                                            21
	
                                              Appendix D. Market Research Conducted
                 Noncompetitive Contracts Awarded by NSWC Crane Contracting Division From FY 2009-FY 2010
                                  Estimated                                                                                                                                            Market
                                                                                                       Results of Market Research or                         Examples of
          Contract               Value on the                                                                                                                                         Research
                                                           Specific Steps Performed                   Justification for Not Conducting                        Supporting
          Number                 Justification                                                                                                                                       Considered
                                                                                                              Market Research                               Documentation1
                                and Approval                                                                                                                                          Adequate
                                 $291,000,000 for                                                     There were no commercial applications for the
                                                          A detailed market survey of available
                                     the class                                                         Target Sight System. No other sources were
                                                         devices was completed by the Requiring                                                             J&A and an acquisition
1     N00164-10-C-JQ84          $54,300,000 for this
                                                            Technical Activity. Prior contract
                                                                                                         capable of satisfying the Government’s
                                                                                                                                                                  checklist
                                                                                                                                                                                        Yes
                                procurement at base                                                   requirement. The contractor was unwilling to
                                                                  history was reviewed.
                                      award                                                                   sell the unlimited data rights.
                                    $7,150,099                                                         Several websites were searched, but potential
                                                          Internet searches of websites, such as                                                               J&A, acquisition
                                   An addendum                                                          vendors did not have similar products that
                                                         Google and the Thomas Registry, were                                                                  checklists, and a
2     N00164-10-D-WM17          increased the value
                                                           conducted. Potential sources were
                                                                                                      would meet the requirements. Potential vendors
                                                                                                                                                                market research
                                                                                                                                                                                        Yes
                                 prior to award to                                                    were contacted but none responded. Data rights
                                                         contacted. Prior history was reviewed.                                                                  questionnaire
                                    $9,931,350                                                                      were not for sale.
                                                         Internet searches of Google, Fedworld,        The contractor was the only vendor contacted
                                                             and competitors’ websites were              and was unwilling to sell the rights. Three
                                                                                                                                                             J&A and acquisition
3     N00164-09-D-JQ64              $5,750,000             conducted. Potential sources were            companies were surveyed, and none had the
                                                                                                                                                                 checklists
                                                                                                                                                                                        Yes
                                                                surveyed. Prior contract               capability to produce, repair, or refurbish the
                                                                  history was reviewed.                                laser resonator.
                                                          Internet searches were conducted of         Potential sources contacted were not capable of
                                                        competitors’ websites. Potential sources           supporting the repairs of the item. The
                                                                                                                                                             J&A and acquisition
4     N00164-09-D-JN11              $4,900,000          were contacted regarding the gun weapon       contractor confirmed this as a commercial item.
                                                                                                                                                                 checklists
                                                                                                                                                                                        Yes
                                                         system. The contractor was contacted.            The contractor owns the data rights and
                                                              Prior history was reviewed.               drawings and was unwilling to sell the data.
                                                                                                      The OEM owns the proprietary data rights for
                                                         Internet searches were conducted on a         the source code needed to run the Automated
                                                        parts research website. Prior history was      Test Equipment. Funding is not available to
5     N00164-09-C-WT44              $6,500,000            reviewed. The Requiring Technical           procure the design and computer code rights to        Acquisition checklists      Yes
                                                            Activity had discussions with the         develop a test unit independently. The OEM is
                                                                       contractor.                     not willing to sell or license their rights, or to
                                                                                                         sell the Government the drawing package.
Acronyms and footnotes used throughout Appendix D are defined on the final page of Appendix D.




                                                                                               22
	
                                        Appendix D. Market Research Conducted (con’t)
                       Noncompetitive Contracts Awarded by NSWC Crane Contracting Division From FY 2009-FY 2010
                                    Estimated                                                                                                                                            Market
                                                                                                           Results of Market Research or                       Examples of
            Contract               Value on the                                                                                                                                         Research
                                                              Specific Steps Performed                    Justification for Not Conducting                      Supporting
            Number                 Justification                                                                                                                                       Considered
                                                                                                                  Market Research                             Documentation1
                                  and Approval                                                                                                                                          Adequate
                                                                                                          The Government had unsuccessfully attempted
                                                           Machine Gun Feed Chutes were searched
                                                                                                          to establish a second source. Only the current
                                                            using Yahoo. Previous synopsis results
                                                                                                         contractor expressed interest in the requirements     J&A and acquisition
  6      N00164-09-D-JN50             $11,500,000          and prior history were reviewed. Industry
                                                                                                         for previous procurements. The procurement is            checklists
                                                                                                                                                                                          Yes
                                                             and Navy personnel were contacted to
                                                                                                         for a commercial item. The contractor owns the
                                                                 determine market capabilities.
                                                                                                           data rights and is unwilling to sell the rights.
                                                                                                         Additional commercial vendors were identified;
                                    $9,000,000 for                                                         however, the OEM is the only company who
                                       the class           Internet searches were conducted using         can meet the requirements. The OEM’s item is
  7      N00164-10-C-JT04          $591,457 for this       Yahoo, GSA Advantage, and competitor           the only known direct replacement part for the      Acquisition checklists      Yes
                                  procurement at base                     websites.                      fielded systems. The Government does not own
                                        award                                                                   the technical data needed to modify
                                                                                                                        the existing systems.
                                                                                                            The contractor does not have a current GSA
                                                                                                         pricing schedule. Unable to determine if similar
                                    $9,000,000 for         Internet searches were conducted using         items were qualified for the fielded GBOSS as
                                       the class          Government and potential vendor sites. A        direct field replacements, since the systems are
                                                                                                                                                               J&A and acquisition
  8      N00164-10-C-JT05          $504,949 for this       telephone conversation was held with a            needed for an immediate mission-essential
                                                                                                                                                                   checklists
                                                                                                                                                                                          Yes
                                  procurement at base      sales manager. Contacted industry and         requirement in theater. The items are considered
                                        award                        Government experts.                 commercial. The Government does not own the
                                                                                                                  technical data required to modify
                                                                                                                         the existing systems.
                                                                                                           The items being procured are commercially
                                                                                                          available. Four models were identified with
                                                             Internet searches were performed using
                                                                                                         useful attributes; however, other models do not      J&A and an acquisition
  9      N00164-10-D-JN69             $48,750,000          industry, competitors, and the contractor’s
                                                                                                          meet Special Operations’ requirements. The                checklist
                                                                                                                                                                                          Yes
                                                                            websites.
                                                                                                          contractor owns all product rights and is the
                                                                                                             only manufacturer of the AN/PVS-24.
Acronyms and footnotes used throughout Appendix D are defined on the final page of Appendix D.




                                                                                                   23
                                        Appendix D. Market Research Conducted (con’t)
                       Noncompetitive Contracts Awarded by NSWC Crane Contracting Division From FY 2009-FY 2010
                                    Estimated                                                                                                                                            Market
                                                                                                         Results of Market Research or                       Examples of
            Contract               Value on the                                                                                                                                         Research
                                                             Specific Steps Performed                   Justification for Not Conducting                      Supporting
            Number                 Justification                                                                                                                                       Considered
                                                                                                                Market Research                             Documentation1
                                  and Approval                                                                                                                                          Adequate
                                                                                                            Contracting personnel determined that a
                                                                                                        competitive environment might exist; however,
                                                                                                          the items were needed before a competitive             An acquisition
                                                             Four companies showed interest and
                                                                                                        acquisition could be completed. The software is     checklist, a contracting
 10     N00164-10-C-GR44              $8,000,000            were contacted. A contracting strategy
                                                                                                        proprietary to the OEM. The Government does         strategy document, and
                                                                                                                                                                                          Yes
                                                                      meeting was held.
                                                                                                         not own the software rights or source control              e-mails
                                                                                                         drawings needed to compete the procurement,
                                                                                                          and the contractor is unwilling to sell them.
                                                                                                        Similar products were identified; however, only
                                                                                                        the MK49 MOD 0 ROSAM can interface with
                                                             The contractor was contacted. Prior                                                             J&A and acquisition
 11      N00164-10-D-JN97             $5,000,000
                                                                   history was reviewed.
                                                                                                         all needed systems. The OEM owns the data
                                                                                                                                                                 checklists
                                                                                                                                                                                          Yes
                                                                                                        rights and drawings and is not willing to sell or
                                                                                                                       license the rights.
                                                               Various site visits were conducted.      The contractor is the only company capable of
                                                             Internet searches of websites, such as     repairing the Traveling Wave Tubes. Previous
                                                             Google and a parts research site, were       attempts from other contractors have been
                                                                                                                                                             J&A and acquisition
 12     N00164-09-D-WS01              $4,000,000           conducted. The contractor was contacted        unsuccessful. Substantial duplication costs
                                                                                                                                                                 checklists
                                                                                                                                                                                          Yes
                                                           regarding market capabilities to meet the    would occur if the procurement was competed.
                                                             requirement. Prior history and a prior            The OEM owns the specifications
                                                                    synopsis were reviewed.                              and drawings.
                                                                                                          The total time to build and replace a battery
                                                                                                         with an alternate source would cause an eight
 13      N00164-09-C-GS38             $2,500,000             Market research was not conducted.
                                                                                                                 month delay at a total cost of
                                                                                                                                                                     J&A                  Yes2
                                                                                                                  $4,100,000 per submarine.
                                                            Program research on Defense websites
                                                                                                             Only one manufacturer is capable of
                                                               and a Google internet search for                                                              J&A and acquisition
 14      N00164-09-C-JQ70              $858,000
                                                              “Magnetic Transmitter Unit” was
                                                                                                          manufacturing this part. The technical data
                                                                                                                                                                 checklist
                                                                                                                                                                                          Yes
                                                                                                          associated with this system is proprietary.
                                                          conducted. One contractor was contacted.
Acronyms and footnotes used throughout Appendix D are defined on the final page of Appendix D.




                                                                                                   24
                                        Appendix D. Market Research Conducted (con’t)
                       Noncompetitive Contracts Awarded by NSWC Crane Contracting Division From FY 2009-FY 2010
                                     Estimated                                                                                                                                             Market
                                                                                                             Results of Market Research or                       Examples of
             Contract               Value on the                                                                                                                                          Research
                                                              Specific Steps Performed                      Justification for Not Conducting                      Supporting
             Number                 Justification                                                                                                                                        Considered
                                                                                                                    Market Research                             Documentation1
                                   and Approval                                                                                                                                           Adequate
                                                              The specific steps taken to conduct
                                                                                                            The results of market research, if performed,
 15      N00164-09-C-JQ56             $11,254,000              market research, if any, were not
                                                                                                                       were not documented.
                                                                                                                                                                        None                 No
                                                                         documented.
                                                                                                           In total, four potential sources were contacted in
                                                                                                            regards to market capabilities. Two contractors
                                                            Internet searches were conducted using
                                                                                                           provided quotes; however, only one could meet        J&A and an acquisition
 16      N00164-10-D-GR49              $2,256,195          Google. Potential sources were contacted.
                                                                                                              the requirements. The Government does not               checklist
                                                                                                                                                                                            Yes
                                                              Prior contract history was reviewed.
                                                                                                            own the proprietary rights for the manufacture
                                                                                                                and repair of the SPS-48 rotary couplers.
                                                                                                           The Government estimated reverse engineering
                                                                The contractor was contacted.              would require 14 months and up to 4 months for
                                                                                                                                                                 J&A and acquisition
 17      N00164-10-C-WT76               $618,851           Government estimates and prior history of        certification for this equipment to be ready for
                                                                                                                                                                     checklists
                                                                                                                                                                                            Yes
                                                                similar items were reviewed.                install. The items are commercially available.
                                                                                                           The OEM was unwilling to sell the data rights.
                                                           Internet searches were performed using            A manufacturer and its distributor both stated
                                                           Google. Contracting personnel reviewed           they had proprietary rights. Neither would sell       Market research
 18     N00164-10-D-WM19                $591,026             additional sources and prior history.         the rights. A third source was willing to provide     questionnaires and         Yes
                                                            Three industry experts were contacted             a quote; however, the contractor is the only      acquisition checklists
                                                                regarding market capabilities.               approved manufacturer of the cable assembly.
                                                                                                             The OEM manufactures and repairs various
                                                                                                             Aircraft Smoke Detectors and Aircraft Fire
                                                           Internet searches of several websites, such
                                                                                                                 Extinguishing equipment for several
                                                               as Google and industry sites, were                                                                J&A and acquisition
 19      N00164-10-D-WT71               $749,035
                                                              conducted. The OEM was contacted.
                                                                                                            Government and commercial customers. The
                                                                                                                                                                     checklists
                                                                                                                                                                                            Yes
                                                                                                              OEM is the only source that can meet the
                                                                  Prior history was reviewed.
                                                                                                           requirements. The data rights are proprietary to
                                                                                                                    the OEM and are not for sale.
Acronyms and footnotes used throughout Appendix D are defined on the final page of Appendix D.




                                                                                                    25
	
                                        Appendix D. Market Research Conducted (con’t)
                       Noncompetitive Contracts Awarded by NSWC Crane Contracting Division From FY 2009-FY 2010
                                     Estimated                                                                                                                                    Market
                                                                                                        Results of Market Research or                      Examples of
             Contract               Value on the                                                                                                                                 Research
                                                              Specific Steps Performed                 Justification for Not Conducting                     Supporting
             Number                 Justification                                                                                                                               Considered
                                                                                                               Market Research                            Documentation1
                                   and Approval                                                                                                                                  Adequate
                                                                                                      The time delay and the $1,800,000 in associated
                                   $9,000,000 for class                                                reverse engineering costs were not acceptable
                                    $367,740 for this                                                    considering the compelling need for these
 20       N00164-10-C-JT11
                                   procurement at base
                                                              Market research was not conducted.
                                                                                                            systems. The items were considered
                                                                                                                                                                 J&A               Yes2
                                         award                                                        commercial. The Government did not own the
                                                                                                        data required to modify the existing system.
                                                                                                         The toolset was considered commercially
                                                                                                      available. The Government did not possess the
                                                             The contractor’s website was queried.
                                                                                                       TDP to allow for full and open competition.          An acquisition
 21      N00164-10-C-WM22               $340,000              Contacted industry and Government
                                                                                                      The toolset, available only from the contractor,        checklist
                                                                                                                                                                                   Yes
                                                                            experts.
                                                                                                      was needed to verify equipment met Integrated
                                                                                                              Topside Chipset requirements.
                                                                                                      If an alternate source was used, additional time,
                                                                                                          testing, and parts would cause substantial
                                                                                                       duplication of costs and delays to the program.
                                                            Potential vendors were contacted. Prior                                                       J&A and acquisition
 22      N00164-10-C-GR87               $336,000
                                                                contract history was reviewed.
                                                                                                      The item is considered commercially available.
                                                                                                                                                              checklists
                                                                                                                                                                                   Yes
                                                                                                      The design is proprietary to the contractor, and
                                                                                                         the contractor is not willing to sell the data
                                                                                                        rights to the Government or any other party.
                                                                                                       The contractor was the only company capable
                                                            Internet searches of numerous websites,
                                                                                                          of providing support for all the systems
                                                               such as Google, wspnet.com, and
                                                                                                       involved. Two to four years would be needed        J&A and acquisition
 23      N00164-10-D-WM15              $11,490,000             wired.com, were conducted. The
                                                                                                      to duplicate the knowledge and expertise of the         checklists
                                                                                                                                                                                   Yes
                                                                 contactor was contacted. Prior
                                                                                                      contractor, and start-up and training costs for a
                                                                      history was reviewed.
                                                                                                        new contractor was estimated at $4,831,156.
                                                                                                      An alternative source would require $2,000,000
                                                              The contractor was contacted. Prior      and 3 years to train personnel in the required     J&A and acquisition
 24      N00164-09-C-WQ19              $40,445,000
                                                                    history was reviewed.              competencies. The contractor owns the data             checklists
                                                                                                                                                                                   Yes
                                                                                                                    rights and drawings.
Acronyms and footnotes used throughout Appendix D are defined on the final page of Appendix D.



                                                                                                 26
                                          Appendix D. Market Research Conducted (con’t)
                        Noncompetitive Contracts Awarded by NSWC Crane Contracting Division From FY 2009-FY 2010

                                      Estimated                                                                                                                                         Market
                                                                                                            Results of Market Research or                     Examples of
             Contract                Value on the                                                                                                                                      Research
                                                                Specific Steps Performed                   Justification for Not Conducting                    Supporting
             Number                  Justification                                                                                                                                    Considered
                                                                                                                   Market Research                           Documentation1
                                    and Approval                                                                                                                                       Adequate
                                                                Internet Searches were conducted.         No commercial items will meet the Government
                                                              Industry and Government experts were          needs. Searches confirmed the sole-source
    25    N00164-09-D-GS16              $6,000,000
                                                               contacted. Prior contract history was      nature of the procurement. The contractor owns
                                                                                                                                                             Acquisition checklists      Yes
                                                                            reviewed.                          and is unwilling to sell the data rights.
                                                                                                           Potential contractors were contacted; however,
                                                              Internet searches of websites, such as
                                                                                                           the contractor is the only source that can meet
                                                             Google, Techexpo.com, and firstgov.gov,
                                                                                                             the requirements. The contractor owns the       J&A and acquisition
    26    N00164-10-D-JS16              $2,683,693           were conducted. Potential sources were
                                                                                                               engineering and technical drawings and            checklists
                                                                                                                                                                                         Yes
                                                              contacted. Prior contract history was
                                                                                                                 specifications, and the contractor is
                                                                            reviewed.
                                                                                                                      unwilling to sell the TDP.
                                                                                                           The contractor was the only company suitable
                                                                                                          for the effort. Three companies were identified
                                                                                                          as potential sources. One contractor was unable
                                                               Internet searches of websites, such as
                                                                                                           to meet the requirements. Another contractor
                                                                 Google, the contractor’s site, and
                                                                                                            requested additional information, which was      J&A and acquisition
    27   N00164-10-D-WS26                $354,410               competitors’ sites, were conducted.
                                                                                                             provided but did not respond, and the third         checklists
                                                                                                                                                                                         Yes
                                                              Potential sources were contacted. Prior
                                                                                                           contractor did not respond. The Government
                                                                   contract history was reviewed.
                                                                                                            does not own the TDP to allow full and open
                                                                                                          competition, and the contractor was not willing
                                                                                                                          to sell or license it.
1
 Acquisition checklists may have included the market research forms and procurement checklists completed by technical and contracting personnel.
2
 Although market research was not conducted, the rationale provided for not conducting research was considered appropriate.

GBOSS        Ground Based Operational Surveillance System                                  OEM                Original Equipment Manufacturer
GSA          General Services Administration                                               ROSAM              Remote Operated Small Arms Mount
J&A          Justification and Approval                                                    TDP                Technical Data Package
NSWC         Naval Surface Warfare Center




                                                                                                   27
	
